<html>
<title> - MILITARY CONSTRUCTION AND VETERANS AFFAIRS, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2006</title>
<body><pre>[Senate Hearing 109-]
[From the U.S. Government Printing Office]



 
   MILITARY CONSTRUCTION AND VETERANS AFFAIRS, AND RELATED AGENCIES 
                  APPROPRIATIONS FOR FISCAL YEAR 2006

                              ----------                              


                         TUESDAY, JUNE 28, 2005

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 4 p.m., in room SD-138, Dirksen 
Senate Office Building, Hon. Kay Bailey Hutchison (chairman) 
presiding.
    Present: Senators Hutchison, Allard, Feinstein, Johnson, 
and Landrieu.

                       OVERSEAS BASING COMMISSION

STATEMENT OF HONORABLE AL CORNELLA, CHAIRMAN, OVERSEAS 
            BASING COMMISSION
ACCOMPANIED BY:
        MAJOR GENERAL LEW E. CURTIS, III, UNITED STATES AIR FORCE 
            (RET.)
        VICE ADMIRAL ANTHONY A. LESS, UNITED STATES NAVY (RET.)
        BRIGADIER GENERAL KEITH MARTIN, PENNSYLVANIA ARMY NATIONAL 
            GUARD (RET.)
        LIEUTENANT GENERAL H.G. TAYLOR, UNITED STATES ARMY (RET.)

           OPENING STATEMENT OF SENATOR KAY BAILEY HUTCHISON

    Senator Hutchison. The hearing will come to order. I 
apologize for being late, I thank all of you for being here and 
I'm very pleased that we now have our report and our hearing. 
The Commission has concluded that making the necessary changes 
in the report did not have a material affect on its conclusions 
and recommendations, thus the report has been edited in 
response to concerns of the Department, and we appreciate all 
of the cooperation by both the Department of Defense and the 
Overseas Basing Commission.
    The Overseas Basing Commission was created in November of 
2003 in the Military Construction Appropriations Act, Senator 
Feinstein and I were the authors of that legislation. We passed 
the legislation because we were concerned that the United 
States was pouring large amounts of money into overseas 
military facilities that were more appropriate to the Cold War 
than to the security environment of the 21st century. I also 
was concerned that the Department was not thinking boldly 
enough about the posture more appropriate to that new security 
environment, and creating the Commission served a dual 
purpose--providing Congress with an independent view of our 
overseas basing needs, and working with the Department of 
Defense to tackle this effort vigorously.
    We have before us a fresh look at these important 
questions, not necessarily does it have all the right answers, 
but it is another independent view of the subject. I believe 
we'll find that the Commission's very existence will prove to 
have been as important as any of the specific recommendations 
it has to make.
    I'm pleased to note the Commission report overall is in 
support of the Global Basing Strategy of the Department of 
Defense, and while the Commission diverges from the Department 
on some of the specifics, its plan, in the words of the report 
says, ``The Commission fully understands the need for change 
and endorses most of the initiatives undertaken in the 
Department of Defense's Integrated Global Posture and Basing 
Strategy.''
    I will not read the rest of my opening statement, but just 
to say that I think the goal of the Commission and our goal in 
passing the legislation authorizing the Commission has been 
met, and I think that in the main it is also in agreement with 
the Department of Defense Global Basing Initiative. There are 
some differences, and we will discuss those. We will certainly 
want to hear from the Department of Defense as well, but I 
think when we are looking at some of the problems that we had 
in transporting troops during the run up to the situation in 
Iraq, and the training constraints that we have at overseas 
bases, that certainly the move now to having more troops at 
home and deploying from here is something that is in the works, 
thanks to a lot of effort on the part of the Department.
    So, with that, let me ask my ranking member, Senator 
Feinstein for her opening statement, and as the co-sponsor of 
the legislation to create the Commission, we're very pleased 
that we now have a report, and we believe it will add to the 
body of knowledge to make all of our bases better training 
facilities, and better places for our service men and women to 
live and work. Senator Feinstein.

                 STATEMENT OF SENATOR DIANNE FEINSTEIN

    Senator Feinstein. Thank you very much, Madame Chairman, 
and my thanks to the Commission, to its Chairman, Al Cornella, 
to the members, I really think you have done an excellent job. 
I had a chance at reading the classified version and have just 
received this new one now and look forward to looking through 
it.
    I am very pleased you're working through the classification 
issues which have arisen in conjunction with the report, and 
we've reached the point where we can go forward with this 
hearing today. Senator Hutchison's and my goal in establishing 
the Commission was really to enable and obtain an objective, 
informed overview of the global basing plan from the 
perspective of experts outside of the Pentagon. Your report 
offers precisely the type of overview we were hoping to achieve 
and it raises a number of valid and very thought-provoking 
questions.
    The timing of the report in conjunction with the ongoing 
BRAC process could not really be more propitious. I understand 
you've been invited to testify before the BRAC Commission, and 
I would anticipate that your insight into the global basing 
plan will be a valuable asset to them in their deliberations.
    I agree with both you and the Defense Department that it is 
time to re-think the stationing of the United States military 
forces around the world, but I also share your concerns that 
the Pentagon may be moving too fast, too soon without giving 
enough consideration to America's overarching foreign policy 
and national security objectives. This isn't just an exercise 
of moving pieces on a chessboard. When, how and where we 
reposition existing military forces overseas has a far-reaching 
impact, not only on our national security interest, but also on 
a whole host of economic and political interests. The movement 
of troops from Europe and Korea back to the United States will 
have a huge impact on the communities to which they are 
returning, as your report rightly points out, quality of life 
is a key element of the global re-basing strategy, so the 
Department needs to be very careful to avoid returning American 
troops and their families to bases in communities that are not 
ready to receive them, and this is a major concern, I think, of 
Senator Hutchison, and certainly of my own.
    How the Pentagon expects to accomplish this in the midst of 
the wholesale realignment of domestic bases that will occur as 
a result of BRAC is a question that needs to be answered, and 
interestingly enough, I see where, in your report, you 
mentioned that costs, which are anticipated to be between $9 
and $12 billion with only $4 billion currently budgeted from 
fiscal year 2006 to 2011. You mentioned that these may be 
understated, and that an independent analysis conducted for 
your Commission put the tab at closer to $20 billion. I think 
this is something that we need to come to grips with, I hope, 
Mr. Cornella, that you will talk about that in your remarks.
    Secondly, timing and synchronization are central themes, 
but your report is a great first step, I really want to thank 
you for it, and I certainly look forward to your testimony. 
Thanks, Madame Chairman.
    Senator Hutchison. Thank you. Senator Allard.

                   STATEMENT OF SENATOR WAYNE ALLARD

    Senator Allard. Madame Chairman, I would like to make my 
full statement a part of the record.
    But I would just like to just briefly make these comments.
    In some respects the Commission was critical of the manner 
in which the Department of Defense put together its current 
Integrated Global Basing Posture and Basing Strategy, and some 
may even be tempted to argue that the Commission's 
recommendations indicate that we need to delay, or stop 
entirely, the BRAC process. Madame Chairman, I disagree with 
that assessment.

                           PREPARED STATEMENT

    I note that the Overseas Basing Commission stating it 
fully, agrees with the Department's contention, that there's 
considerable need for a rebasing initiative, in fact, the 
Commission strongly endorses most of the rebasing initiatives 
undertaken by the Department of Defense, and I look forward to 
getting to the heart of the recommendations offered by the 
Commission, and I believe that this hearing will further 
demonstrate how important it is that the BRAC process move 
forward, and that the Department's re-basing initiative is 
fully implemented, and I note with interest that there's one 
bullet in your conclusions and recommendations where you state 
that the overseas basing posture of the United States and 
domestic base closure and realignment are closely related. 
Although the Commission calls for an overarching review of the 
overseas basing posture, you state that we believe that the 
BRAC process should move forward as scheduled, thank you, 
Madame Chairman.
    [The statement follows:]

               Prepared Statement of Senator Wayne Allard

    Thank you, Madame Chairman for holding this important hearing.
    The Commission on the Review of Overseas Military Facility 
Structure of the United States has performed a great service for our 
country. The Commission's report lays out several principles that 
should be considered when reviewing the Department of Defense's 
overseas rebasing initiative. These principles include among others:
  --Ensuring that the rebasing initiative is tied to a master plan
  --Coordinating with agencies outside the Department of Defense
  --Assessing the impact of rebasing on intelligence, force protection, 
        homeland security, and other important national priorities
    In some respects, the Commission was critical of the manner in 
which the Department of Defense put together its current Integrated 
Global Posture and Basing Strategy. Some may even be tempted to argue 
that the Commission's recommendations indicate that we need to delay or 
stop entirely the BRAC process.
    Madame Chairman, I disagree with that assessment. I note that the 
Overseas Basing Commission stated it fully agrees with the Department's 
contention that there is considerable need for a rebasing initiative. 
In fact, the Commission strongly endorsed most of the rebasing 
initiatives undertaken by the Department of Defense.
    I look forward to getting to the heart of the recommendations 
offered by the Commission. I believe that this hearing will further 
demonstrate how important it is that the BRAC process move forward and 
that the Department's rebasing initiative is fully implemented.
    Thank you for the opportunity to say a few words. I look forward to 
the testimony of our witnesses.

    Senator Hutchison. Senator Landrieu.

                 STATEMENT OF SENATOR MARY L. LANDRIEU

    Senator Landrieu. Thank you, Madame Chair, I have a full 
statement for the record.
    I would just like to add, I think it's very important that 
our desires and needs as a Nation be brought into line with our 
budget and monies that we have to allocate, and I'm seeing, 
unfortunately, a pattern of setting out on a course 
underestimating the costs associated, and basically running up 
the debt. And so, I think we've got to be very practical in 
this approach, we have some strategic defense postures to keep 
in place, but we also have some very real budget constraints, 
and if the cost is going to be twice or three times as much as 
we had anticipated, then we're going to need to find the money 
somewhere, and just can't pretend that we can do this with 
minimal to no cost, and we've got to be able to be more 
realistic about that, and I'll say more about that in the 
statement that I submit. Thank you.
    [The statement follows:]

             Prepared Statement of Senator Mary L. Landrieu

    Madame Chairman, thank you for calling this hearing to review the 
Overseas Basing Commission recommendations.
    Since the end of the Cold War, the United States has stood as the 
unrivaled military leader in the world. Our fighting men and women have 
preserved national security and served our foreign policy interests 
admirably since the collapse of the Soviet Union. However, the attacks 
of September 11, 2001 on the United States highlighted the need to 
transform our national defense strategy to address the terrorist and 
extremist threats which seek to destroy our country's influence in the 
world.
    Admiral Nimitz, one of our foremost Naval heroes defined the task 
for us. He noted that ``whoever gets there firstest with the mostest 
wins.'' That is our contemporary challenge which positions U.S. 
fighting men and women abroad. We must place them around the globe in 
such a way as to assure that U.S. forces are the first in the The 
Theater, and that they can bring overwhelming force to bear.
    Yet while our government contemplates a global strategy to keep our 
Nation more secure, we must also consider the personal impacts our 
decision-making will have. As we contemplate closing facilities in 
Germany and other places in Europe, we must keep a special focus on our 
military families. We are already asking them to make incredible 
sacrifices. We do not need to add the inevitable burdens of separation 
and worry by relocating our bases to places where it is unlikely or 
impossible for their families to follow.
    Another consideration for this process is ensuring that our allies 
and friends recognize that we aim to strengthen our commitment to 
secure our common interests. We must explore ways in which we can 
together transform our partnership in order to enhance our collective 
defense capabilities. It is time for our allies to work toward this 
goal together. Gone are the days when the United States can be expected 
to foot the bill for every cause.
    Madam Chairman, while I trust that all the members of the Overseas 
Basing Commission will provide valuable recommendations to strengthen 
the U.S. Global Defense Posture, I think it is important that this 
subcommittee keep in mind that managing this complex concept is a 
costly endeavor. While have put much effort into the building blocks of 
posture changes which include the facilities that make up our overseas 
footprint. However, we also need a new approach to managing the force 
which includes our permanent and rotational presence overseas must 
include our allies and their own accountability for the goals which 
they can no longer expect to achieve without their own proportionate 
investment.
    We must make certain that we keep our Nation's obligation to those 
who have served and sacrificed in its defense. I believe that the U.S. 
Global Defense Posture is important and necessary. I also believe that 
our commitment to this endeavor must be tempered by realistic 
expectations to be achieved and by appropriate and responsible 
contributions to be made by the United States as well as our Allies.
    In its report, the Overseas Basing Commission expressed areas where 
the Department of Defense can provide for a more secure America. 
Suggestions in the report range from better communication and a wider 
spectrum of views by partners in the decision-making process to a more 
cohesive overall design which would be administered by a specific body 
that would be assigned responsibilities to both guide and monitor its 
implementation. Also, the Commission suggests Congress exercise its 
full authority in ensuring that plans and programs are appropriate to 
the task.
    The Commission's recommendations are critical in the strategy of 
transformation which will change the face of national security for many 
years to come. It is essential we have an honest and open dialogue to 
insure America continues to preserve the lives of its citizens for 
generations to come.
    Thank you all for your testimony. Also, I hope that in the future 
we will be able to discuss one of the most important issues which faces 
this committee, the shortfall in Veterans Health Care funding.
    Madame Chairman, Senator Hutchison, thank you for your continued 
leadership on these issues. I look forward to the testimony of our 
witnesses.

    Senator Hutchison. Senator Johnson.

                    STATEMENT OF SENATOR TIM JOHNSON

    Senator Johnson. Thank you, Madame Chairman. I want to in 
particular welcome a fellow South Dakotan, Al Cornella, 
Chairman of the Commission, to the panel today and express my 
appreciation and the Senate's appreciation for you leadership. 
Mr. Cornella is a former BRAC Commissioner and has been willing 
to take on the very significant task of chairing the Overseas 
Basing Commission, and we're appreciative of that, Al, we are 
proud of your service to the country. I welcome our other panel 
members here, as well, who have each of them, undertaken a very 
large scale, but very important undertaking, and will serve the 
Senate well, I'm certain. I will submit a full statement, 
Madame Chairman.
    I do, however, want to note that I believe that the 
Overseas Basing Commission recommendations and the ongoing 
quadrennial review are of such significance that it would have 
been my preference to have seen those issues resolved prior to 
going onto the BRAC Commission's deliberations about the 
closure and the Department of Defense's recommendations, 
frankly, for the closure of military bases around the country. 
I think that all of these interact with each other, and it is 
hard for me to imagine how the recommendation from the 
Department of Defense could be, well premised without in fact 
having prior access to the studies and reviews of the 
quadrennial review as well as the Overseas Basing Commission.
    Nonetheless, here we are, and I look forward to the 
testimony of the Commission, and I want to tell the Commission 
that I was very supportive of this effort I think that your 
work is going to be a very constructive and positive 
contribution to our overall review of America's military 
posture in the world and domestically as well, thank you.
    [The statement follows:]

               Prepared Statement of Senator Tim Johnson

    Mr. Johnson. I would like to thank Chairwoman Hutchison and Ranking 
Member Feinstein for calling today's hearing to discuss the Overseas 
Basing Commission's interim report.
    I would also like to thank Chairman Al Cornella for appearing 
before the Subcommittee today. The work performed by the Overseas 
Basing Commission is vitally important to our national security and the 
long-term viability of our military force.
    Today the Military Construction and Veterans Affairs Subcommittee 
will hear testimony from Commission members about redeploying 
servicemembers from U.S. military facilities overseas. Their report 
could not come at a more important time.
    The threats facing the United States today are vastly different 
from those during the Cold War. Much has changed since that conflict 
ended and we must shift our security posture to confront new and 
emerging enemies. In addition, Secretary Rumsfeld has released his list 
of proposed domestic base closures and realignments, and the Base 
Realignment and Closure (BRAC) Commission has begun their important 
work to review and revise the Secretary's list. Domestic base closures 
have a profound effect on our military force and the economic health of 
local communities. We should not close a single domestic base if it may 
unduly compromise our ability to defend our homeland.
    Currently, the Department of Defense is undertaking a monumental 
shift in overseas deployments. The threats confronting the United 
States have changed dramatically following the collapse of communism 
and the terrorist attacks of September 11. In response, approximately 
70,000 soldiers, as well as 100,000 family members and civilian 
employees, will be returning from overseas in the next decade. This 
shift in our military force abroad is long overdue.
    However, the Overseas Basing Commission's interim report raises a 
number of important questions that must be addressed. For instance, the 
U.S. military plans to move troops stationed overseas back to American 
soil, but according to the Commission, if a crisis arises abroad, the 
military does not have enough sea and air transportation to rotate 
forces rapidly enough to respond. Just as troubling, the Bush 
Administration has projected it will cost $12 billion to redeploy 
soldiers back to the United States, but has only budgeted $4 billion 
for fiscal years 2006 through 2011. The Commission believes these costs 
are understated and according to their independent analysis the price 
tag is closer to $20 billion.
    Furthermore, if the Defense Department's proposed changes in 
overseas bases are enacted, it will result in additional troop 
rotations. The Commission's report argues that extended and more 
frequent rotations could strain U.S. military personnel and their 
families to the point where the United States is incapable of 
maintaining an all-volunteer force. I am extremely concerned with these 
conclusions. The military is already having trouble meeting recruitment 
and retention quotas. Creating more stress for our soldiers and their 
families will exacerbate this problem and irreparably damage our 
military.
    In response to these concerns, the Commission cautions the 
Department of Defense and urges them to reduce the speed of returning 
soldiers from overseas bases, and I believe this idea has merit. At a 
time when we are fighting wars in Iraq and Afghanistan, we must ensure 
the redeployment of American service members is in accord with our 
long-term strategic defense goals and should be thoughtfully planned 
and executed.
    Additionally, the Commission contends overseas redeployment should 
wait until the Department of Defense determines which domestic military 
bases will be shuttered during this round of base closures. If 
Secretary Rumsfeld and the Pentagon continue to move forward with their 
plan to bring troops back to the United States from overseas 
deployments, I believe we must consider postponing this current round 
of domestic base closures. Simultaneously closing domestic and overseas 
bases may irrevocably damage our ability to defend against threats at 
home and abroad.
    I commend the Overseas Basing Commission for addressing the 
critical issues and concerns raised in preparation for shifting troops 
back to the United States. I strongly encourage Secretary Rumsfeld and 
the Department of Defense to seriously consider the Commission's 
recommendations. We must reorganize our military force in order to 
respond to the threats of the 21st century. The challenge is to do so 
in a manner that is not detrimental to our national security and the 
men and women who proudly serve our country.

    Senator Hutchison. Thank you, Senator Johnson. I think that 
the Department in the next panel will discus how it took into 
consideration the troops that were coming back during the BRAC 
process, so we will get a chance to question them on that.
    Mr. Cornella, thank you for Chairing the Commission, I want 
to thank each Commissioner for all of the time and effort that 
you have put into doing this, you came to Washington many 
times, you went overseas, we appreciate the effort for this 
volunteer force that you gave us, and with that, let me ask 
you, Mr. Cornella, to give us the synopsis of the report, and 
whatever you would wish you say.

                        STATEMENT OF AL CORNELLA

    Mr. Cornella. Madame Chairman, Senator Feinstein, staff 
members, distinguished guests, members of the general public, 
my name is Al Cornella. As I was introduced, I serve as the 
Chairman on the Commission of Overseas Military Facilities 
Structure of the United States, thankfully more commonly known 
as the Overseas Basing Commission.
    I serve with five other Commissioners, four of whom are 
present today. From my far left, the Commission vice-Chairman 
Lou Curtis, Major General United States Air Force, Retired, 
Tony Less, United States Navy, Retired, Pete Taylor on my 
right, Lieutenant General, United States Army, Retired, and 
Keith Martin, Brigadier General, Pennsylvania Army National 
Guard, Retired. Dr. James Thompson, our sixth Commissioner and 
President of BRAC is out of the country and unable to be here 
with us today.
    I would also like to introduce the Commission's Executive 
Director, Ms. Patricia Walker, seated behind me.
    Madame Chairman, I would respectfully ask that the 
statements you received be entered into the record, and I be 
allowed to make a brief opening statement.
    The Commission's talented staff included lead research 
analysts, a general counsel administrative staff, and analysts 
detailed from the Department of Defense and Government 
Accountability Office. The Commissioners and staff have worked 
diligently to prepare the May 2005 report. A final report will 
be provided to Congress and the President by August 15, 2005. 
We were asked to provide this early report so it might be used 
in conjunction with the domestic BRAC process.

                                OVERVIEW

    The Overseas Basing Commission was established by public 
law in fiscal year 2004. The Commission's task is to 
independently assess whether the current overseas basing 
structure is adequate to execute current missions, and to 
assess the feasibility of closures, realignments or 
establishment of new installations overseas to meet emerging 
defense requirements.
    However, the Commission's work is not intended to preclude 
the Department of Defense's effort toward developing an 
integrated global presence and basing strategy, or IGPBS, and 
you'll probably hear me use that acronym several times. Rather, 
the Commission report should assist Congressional Committees in 
performing their oversight responsibilities for DOD's basing 
strategy military construction appropriations, and the 2005 
base re-alignment and closure determinations.
    But one thing I would like to add as I note from your 
opening statements, that there are views about criticism of the 
Department. I do not believe that our report is offered as 
criticism of the Department, it's offered as ways to strengthen 
the IGPBS plan, but we feel these are constructive thoughts 
that we're sending forth.
    The Commission has been active since May 2004 and began 
with a thorough analysis of national security, defense and 
military strategies. The Commission completed a careful review, 
the Foundation for Global Reposturing, the 2004 Department of 
Defense, again IGPBS. It is important to note, at this point, 
the Department on several occasions has advised us that we are 
entitled to and have received all of the information that has 
been provided to Congress relative to overseas basing.
    Second, based on the Commission's interview, interviews of 
key officials in the office of the Secretary of Defense, the 
Joint Staff, the Combatant Commanders and the State Department, 
the Commission developed evaluation criteria to assess how 
effectively the current and future overseas basing posture 
support current and future national security and military 
operations. In addition, the Commission consulted with former 
senior military leaders, and other national security experts. 
We conducted four public hearings where we received testimony 
from former experts, military experts, defense analysts and 
experts on military family issues. At the final hearing, we had 
representatives from the Department of Defense and the State 
Department. We have engaged in briefings from the Department of 
Defense, the State Department, the Congressional Budget Office, 
Congressional research service, and other entities. We visited 
military installations in many countries, meeting with U.S. 
forces, embassy representatives, foreign military officers and 
local officials. We have met with the majority of combatant 
commands, and in most cases, with the commanders and their 
staffs. We have made two trips to the Pacific Command, three to 
the European Command, and one to the Central Command. We spent 
about 2 months overseas traveling, the Commissioners also 
received briefings from U.S. Southern Commands, Special 
Operations Command, and Transportation Command. We have 
interacted with several thousand people over the past year, the 
vast majority from within the Department of Defense. All of the 
Commissioners and I have learned a great deal from these 
discussions, both here and abroad.
    Based on this review and analysis, the Commission has 
identified six major areas of concern--geopolitical 
considerations, timing and synchronization, operational 
requirements, mobility, quality of life and costs, and I will 
touch on a few of these briefly, and then we are prepared to 
address all of them in your questions.

                       TIMING AND SYNCHRONIZATION

    The Commission would like to make note that decisions have 
been made in regard to locations and force levels before the 
2005 Quadrennial Defense Review, QDR, and the 2005 Mobility 
Capability Study had been completed. The simultaneous 
activities of Service Transformation Army Modularity Operation 
Enduring Freedom, Operation Iraqi Freedom and the Global War on 
Terrorism, IGPBS, BRAC, resetting the forces and rebuilding, of 
pre-positioned equipment--have all competed for funding within 
a limited budget, not to mention the stress that's created on 
the forces, the current schedule of IGPBS moves will adversely 
impact the service's ability to adequately fund modernization 
and readiness.
    In regard to mobility, strategic and infra-theater, lift 
and sea lift capabilities must be significantly upgraded. We 
have yet to meet the lift capabilities identified by the 
mobility requirement study of 2005, which was conducted in the 
year 2000. In addition, announcements of global reposturing are 
being made before the presently ongoing Mobility Capability 
Study is concluded. Again, it would seem prudent to wait for 
the results of that study. It is clear that the mobility of our 
military forces being stressed by the current strain on 
strategic infra-theater lift and sea lift capabilities, the 
stress on strategic lift capabilities is being caused in large 
part by ongoing military operations in Afghanistan and Iraq. 
Strategic mobility is the key to our ability to respond to 
events worldwide, plans for sea and air lift capabilities as 
well as pre-positioned equipment sets must take into account 
the additional demands that IGPBS could place on an 
increasingly continental United States-based force. Surging 
forces from the continental United States will be problematic 
if strategic and tactical life capabilities and pre-positioned 
stocks are not in place.

                            QUALITY OF LIFE

    Next, I'll briefly turn to quality of life issues. These 
issues are complex, but are also key concerns of the global 
positioning strategy, primarily because the United States 
relies on an all-volunteer force. In order to sustain the 
military force both in numbers and in strength, the 
expectations of military personnel and their families with 
regard to active and reserve duty as well as redeployments must 
be met. If these expectations are not adequately met, then the 
U.S. military risks being severely compromised. Needless to 
say, this has enormous consequences politically, and in terms 
of maintaining national security. We have a moral obligation to 
our men and women in uniform and to their families to provide 
the quality of life support that they deserve. Returning forces 
and families should have housing, schools for their children 
and adequate medical facilities in place before they return, 
and the same should be maintained abroad until the last service 
member departs.
    The Commission calls this the ``last day-first day'' 
approach; not only does this have moral implications, but it 
will also be reflected in retention rates. The Commission notes 
with concern that the impact in recruiting and retention by 
IGPBS rotational forces has not been adequately evaluated, nor 
have associated risks to sustaining the voluntary force been 
assessed. We strongly recommend that this be given priority, 
and that necessary assessments be completed as quickly as 
possible.

                      GEOPOLITICAL CONSIDERATIONS

    In the present era of the global War on Terror and the 
indisputable global competition in defense, intelligence, 
diplomacy, commerce and energy matters, the Commission feels it 
would be wise to broaden the underlying assumptions, scope and 
participation in the IGPBS process to include vital players 
involved in other areas of national security. The inter-agency 
process, for example, might include the Departments of Defense, 
State, Energy, Homeland Security, Justice, Commerce and 
Treasury, the National Intelligence Director and others. After 
completing the interim report, we were advised that have a 
fourth Commission, but we of the fourth Commission have come to 
a similar conclusion--the others are in the 9/11 Intelligence 
Commission--while moving troops back to the United States may 
be a political priority, force projection demands can only be 
met by developing a rebasing strategy and coordination with 
strategic U.S. alliances abroad, both existing and future.
    Many of our overseas basing capabilities rest on 
contingencies such as future political relations with bilateral 
partners involving fully negotiated and ratified legal 
agreements that support those relations. In many cases the 
status of forces agreements, Article 98 agreements and other 
legal agreements are not in place at the proposed new 
locations.

                              TROOP LEVELS

    I will mention one specific recommendation, as it is the 
only one that has potential to change the number of returning 
troops, and we estimate this recommended change to affect 
roughly 4,000 troops. In order to hedge against uncertainty in 
regard to near-term threats, demonstrate aid and continued and 
enduring commitment to NATO, and allow for heavy force 
military-to-military contact with our NATO allies, at least one 
of the heavy brigade combat teams scheduled for return to the 
United States should remain in Europe, fully manned, until one, 
the Balkans support mission is lifted to a ground-based 
defensive tank killing system is stationed in Europe and 
Operation Iraqi Freedom is mitigated. Additionally, heavy 
brigade combat teams' equipment should be repositioned to float 
in the region. These recommendations are in addition to the 
Department's plan for a Stryker Brigade in Germany, and the 
173rd Airborne Brigade in Italy, and again, we offer these 
suggestions only to strengthen the Department's plan, not as a 
criticism.

                           PREPARED STATEMENT

    As a final note, I wish to thank the members of the 
committee for inviting the Commission to appear today. It's 
been my privilege to briefly describe the Commission work to 
date. Of course, the report has not been finalized and it is my 
hope that this will be the beginning of dialogue in this 
matter, so that the Commission can strengthen its analysis, 
conclusions and recommendations before submitting the final 
report on August 15. Please be assured that the Commission and 
staff are open to the views and concerns of Congress.
    Thank you for giving us this opportunity to serve your 
needs and those of the Nation, and we will be happy to answer 
any questions you may have at this time.
    [The statement follows:]

                   Prepared Statement of Al Cornella

    My name is Al Cornella, and I serve as the Chairman of the 
Commission on the Review of Overseas Military Facility Structure of the 
United States, more commonly known as the Overseas Basing Commission 
(OSBC).
    I serve with five other Commissioners four of whom are present 
today--the Commission Vice Chairman, Lewis Curtis, Major General United 
States Air Force (Retired); Anthony Less, Vice Admiral, United States 
Navy (retired); Pete Taylor, Lieutenant General, United States Army 
(Retired); Keith Martin, Brigadier General, Pennsylvania Army National 
Guard (Retired). Dr. James Thomson, our sixth Commissioner and the CEO 
and president of RAND is out of the country and could not be here 
today. I would also like to introduce the Commission's Executive 
Director, Ms. Patricia Walker.
    The Commission's talented staff included lead research analysts, a 
general counsel, administrative staff, and analysts detailed from the 
Department of Defense and the Government Accountability Office. The 
Commissioners and staff have worked diligently to prepare this May 2005 
report. A final report will be provided to Congress and the President 
by August 15, 2005. We were asked to provide this early report so it 
might be used in conjunction with the domestic BRAC process.
    The Overseas Basing Commission was established by public law in 
fiscal year 2004. The Commission's task is to independently assess 
whether the current overseas basing structure is adequate to execute 
current missions and to assess the feasibility of closures, 
realignments, or establishment of new installations overseas to meet 
emerging defense requirements.
    However, the Commission's work is not intended to preclude the 
Department of Defense's efforts toward developing an integrated global 
presence and basing strategy. Rather, the Commission report should 
assist Congressional committees in performing their oversight 
responsibilities for DOD's basing strategy, military construction 
appropriations, and the 2005 Base Realignment and Closure Commission 
determinations.
    This Commission has been active since May 2004, and has conducted 
four hearings where we received testimony from former military experts, 
defense analysts, and experts on military family issues. We have 
engaged in briefings from the Department of Defense, the State 
Department, the Congressional Budget Office, Congressional Research 
Service, and other entities. The Commission has met with commanders and 
received extensive briefings on the transformation plan for the 
European Command, Pacific Command, and Central Command. The Commission 
has also met with the Transportation Command, Special Operations 
Command, and Southern Command. The majority of our time was dedicated 
to the areas of greatest change.
Main Testimony
    Congress created the Overseas Basing Commission as an independent, 
unbiased entity to produce a report that advises Congress on the 
current and future overseas basing structure of U.S. military forces. 
This is truly a daunting task. In order to explain the preliminary 
conclusions and recommendations that the Commission is prepared to 
offer to this committee today, let me begin by explaining the analytic 
approach we took examining and thoroughly studying various important 
aspects of the overseas basing structure.
Analytic Approach
    First, the Commission began with a thorough analysis of national 
security, defense, and military strategies. The Commission completed a 
careful review of the foundation document for global reposturing, the 
2004 Department of Defense Integrated Global Presence and Basing 
Strategy (IGPBS).
    Second, based on the Commission's interviews of key officials in 
the Office of the Secretary of Defense, the Joint Staff, the COCOMs, 
U.S. Transportation Command, and the State Department, the Commission 
developed evaluation criteria to assess how effectively the current and 
future overseas basing postures support current and future national 
security and military operations.
    In addition, the commission consulted with former senior military 
leaders and other national security experts. Commissioners and staff 
participated in six overseas trips to various commands. We conducted 
four public hearings where we received testimony from former military 
experts, defense analysts, and experts on military family issues. At 
the final hearing we had Mr. Doug Feith and Vice Admiral Robert F. 
Willard from the Department of Defense and Ambassador Rose Likens as a 
representative of the State Department. We have engaged in briefings 
from the Department of Defense, the State Department, the Congressional 
Budget Office, Congressional Research Service, and other entities.
    We visited military installations in many countries, meeting with 
U.S. Forces, embassy representatives, foreign military officers, and 
local officials. We have met with the majority of Combatant Commands 
and in most cases with the commanders and their staffs. The 
Commissioners have received briefings from U.S. Central Command, U.S. 
Southern Command, U.S. Special Operations Command and U.S. 
Transportation Command. We have made two trips to the Pacific Command, 
three to the European Command, and one to the Central Command. All the 
Commissioners, and I, have learned a great deal from these discussions, 
both here and abroad.
    Finally, based on its review and analysis, the Commission 
identified six major areas of concern:
  --Geopolitical Considerations;
  --Timing and Synchronization;
  --Operational Requirements;
  --Mobility;
  --Quality of Life; and
  --Costs.
    I will briefly address each area of concern, and explain the 
findings and conclusions of the Commission on each issue.
Geopolitical Considerations
    The Commission has determined that the DOD's IGPBS does not 
adequately address current and future geopolitical and strategic needs 
in response to existing and emerging security threats for two reasons. 
First, it is the view of the Commission that the IGPBS is too narrowly 
based on military concerns. While the Commission wishes to commend the 
Department of Defense on the design of IGPBS--which is a strategy that 
is directly aimed at addressing the matrix of existing and emerging 
threats--it is clear that the IGPBS has been almost exclusively 
designed by and for the military.
    In the present era of a global war on terror and the indisputable 
global competition in defense, intelligence, diplomacy, commerce and 
energy matters, the Commission feels that it would be wise to broaden 
the underlying assumptions, scope and participation in the IGPBS 
process to include vital players involved in other areas of our 
national security. The interagency process might, for example, include 
the Departments of Defense, State, Energy, Homeland Security 
(especially Immigration and Customs and Border Patrol), Justice 
(especially the Federal Bureau of Investigation), Commerce, and 
Treasury, the National Intelligence Director, and others. After 
completing the interim report, we were advised that we are the fourth 
commission to come to this conclusion. (Others are 9-11, Intelligence, 
and Roles and Missions Commissions)
    The basic concept of the IGPBS--as established by DOD--is 
fundamentally strong, and can be further refined to include issues 
related to homeland security, law enforcement, energy, non-
proliferation, and other pressing national needs and priorities. 
Information sharing and inter-agency coordination among government 
agencies is a top priority of this Administration, and we feel that 
IGPBS can support this goal by broadening and diversifying its approach 
and implementation.
    Indeed, many of our overseas basing capabilities rest on 
contingencies such as future political relations with bilateral 
partners fully negotiated and ratified legal agreements that support 
those bilateral relations. In many cases, the Status of Forces 
Agreements (SOFA), access agreements, Article 98 agreements, and other 
legal agreements are not in place in proposed new locations.
Timing and Synchronization
    Another reason the Commission feels that the IGPBS should be 
modified relates to more particular matters of the proposed timing and 
synchronization of IGPBS. The Commission has concluded that while the 
IGPBS is an ambitious plan to restructure our global posture, it does 
so without fully taking into account other dynamic, ongoing and, in 
some cases, unpredictable changes.
    If the IGPBS is based on the 2001 Quadrennial Defense Review (QDR), 
why would you not wait for the results of the current 2005 QDR--
scheduled to be completed this fall--or the 2005 Mobility Capabilities 
Study (MCS) to be completed in August before announcing movements of 
forces?
    The simultaneous activities of service transformation, Army 
modularity, Operation Enduring Freedom, Operation Iraqi Freedom, the 
Global War on Terrorism, IGPBS, BRAC, resetting the forces, and 
rebuilding of pre-positioned equipment sets all compete for funding 
within a limited budget. Not to mention the stress on forces. The 
current schedule of IGPBS moves will adversely impact the Services 
ability to adequately fund modernization and readiness.
Operational Requirements
    The commission is concerned that heavy forces in Europe are being 
removed from the mix. We also note the strategic importance of Okinawa. 
Diminishing our capabilities on the island would pose risk to our 
allies and our national interests in the region. At the same time, we 
feel it is important to move from Futenma Marine Corps Air Station.
    Moreover, not enough attention has been given to our ability to 
train and exercise the force in the formulation of the overseas basing 
plan. Infrastructure is sparse in some regions and, capabilities for 
integrated training across services and with allies remain sketchy.
    The Commission notes with concern that the impact on recruiting and 
retention by IGPBS rotational forces has not been adequately evaluated, 
nor have associated risks to sustaining the volunteer force been 
assessed. We strongly recommend that this be given priority, and that 
the necessary assessments be completed as quickly as possible.
Mobility
    It is clear that the mobility of our military forces is being 
compromised by the current strains on strategic lift, intra-theater 
lift, and sealift capabilities. The stress on strategic lift 
capabilities is being caused, in large part, by our on-going military 
operations in Afghanistan and Iraq. However, other tactical lift 
demands in terms of responding to political crises such as in Haiti and 
Sudan, as well as unanticipated natural disasters necessitating 
military intervention such as in the recent December 2004 tsunami 
event, also play a factor in challenging DOD's mobility capabilities.
    While moving troops back to the United States may be a political 
priority, force projection demands can only be met by developing a 
rebasing strategy in coordination with strategic U.S. alliances abroad 
(both existing and future).
    Strategic and Intra-theater air and sealift mobility capabilities 
must be significantly upgraded. We have yet to meet the lift 
capabilities identified by the Mobility Requirements Study 2005 
(conducted in the year 2000). In addition, announcements of global 
reposturing are being made before the presently ongoing Mobility 
Capabilities Study (MCS) is concluded. It would seem prudent to wait 
for the results of that study.
    Strategic mobility is the key to our ability to respond to events 
worldwide. Plans for sea and airlift capabilities, as well as 
prepositioned equipment sets, must take into account the additional 
demands that IGPBS could place on an increasingly continental United 
States (CONUS)-based force. Surging forces from CONUS will be 
problematic if strategic and tactical lift capabilities and 
prepositioned stocks are not in place.
Quality of Life
    Next, I would like to turn to quality of life issues. These issues 
are complex but are also key concerns of the global positioning 
strategy, primarily because the United States relies on an all-
volunteer force. In order to sustain the military force (both in 
numbers and in strength), the expectations of military personnel and 
their families with regard to active and reserve duty as well as 
redeployments must be met. If these expectations are not adequately 
met, then the U.S. military risks being severely compromised. Needless 
to say, this has enormous consequences politically and in terms of 
maintaining national security.
    We have a moral obligation to our men and women in uniform--and to 
their families--to provide the quality of life support they deserve. 
Returning forces and families should have housing, schools for their 
children, and adequate medical facilities in place before they return 
and the same should be maintained abroad until the last service member 
departs. The commission calls this a ``last-day, first-day'' approach. 
Not only does this have moral implications, but will also be reflected 
in retention rates.
Costs
    Now, with regard to the cost of changing the overseas basing 
structure and the realignment and closure of bases in general, the 
Commission recognizes that the costs are significant. In many cases, it 
is not even possible to predict the true costs of certain strategic 
changes.
    The cost of IGPBS is estimated at $8 to $12 billion. An independent 
analysis for the commission put the figure closer to $20 billion. Many 
costs are sunk into projected host nation support that may not come to 
fruition. In other cases, the services are expected to pay from within 
their service budgets.
    For example, costs need to be estimated and planned for troop and 
base relocations. Significant upgrades of main operating bases, forward 
operating sites, cooperative security locations, and pre-positioned 
combat support sites need to be planned. Let us also not lose sight of 
the fact that significant financial investments in new weapons systems, 
strategic lift capabilities, training, and integrated systems need to 
be made in order to keep the U.S. military as the premier fighting 
force in the world.
    Finally, these changes need to keep abreast of making Quality of 
Life expenditures in order to attract and keep a dedicated military 
force. Investing in the training of our military force is also a vital 
component of maintaining strategic capability, and requires the 
expenditure of enormous funds.
    In light of this, the Commission recognizes that Congress should be 
informed of realistic costs as to coordinate strategic and operational 
requirements with budgetary needs and constraints. The Congress needs 
accurate estimates to determine what is prudent, and must be prepared 
to support IGPBS if it is to succeed.
    Therefore, in light of the previously mentioned concerns, the 
Commission makes the following recommendations:
  --The detailed synchronization required by so massive a realignment 
        of forces requires that the pace of events be slowed and 
        reordered. We know of no nation asking us to leave. These moves 
        should be conducted at a pace that does not place additional 
        stress on our armed forces.
  --That the entire effort of overseas basing be integrated into one 
        overarching design that is coordinated and synchronized with 
        all ongoing initiatives. Furthermore, an interagency review 
        process is put in place to periodically consider the impacts of 
        the global force posture and to ensure that outcomes are 
        consistent with overall national interests.
  --The Commission believes strongly that Congressional oversight of 
        the global posture review is truly necessary. The Congress, 
        including the Armed Services and Foreign Relations Committees, 
        should provide more rigorous oversight (to include hearings) of 
        the global basing process given the scope and cost of the DOD 
        rebasing plans, their impacts on the individual services, the 
        men and women of our armed services and their families, and to 
        the political and trade alliances of the United States. 
        Particular attention should also be paid to the timing and 
        synchronization and cost of all the related efforts.
  --DOD must ensure that all necessary infrastructure and quality of 
        life programs (such as housing, medical, schools, etc.) are 
        retained at overseas bases until the last day the service 
        members and their families depart. At the same time, Congress 
        must ensure that the necessary infrastructure and quality of 
        life programs are already in place by the first day the first 
        troops and families arrive from their overseas locations.
  --Moreover, the Commission strongly urges that the planned overseas 
        basing structure be coordinated with strategic lift 
        considerations, especially with regard to troop and equipment 
        mobilization. We feel that this planning is necessary in terms 
        of adequately meeting the demands of the overall global pre-
        positioning strategy
    Additionally, the Commission recommends that:
  --Marine Corps air assets assigned to Futenma Marine Corps Air 
        Station on Okinawa should relocate to Kadena Air Base and/or 
        Iwakuni Marine Corps Air Station; all other Marine Corps assets 
        should remain on Okinawa.
  --In order to hedge against uncertainty in regard to near term 
        threats, demonstrate a continued and enduring commitment to 
        NATO, and allow for heavy force military to military contacts 
        with our NATO allies, at least one of the heavy brigade combat 
        teams scheduled for return to the United States should remain 
        in Europe fully manned until: (1) The Balkan's support mission 
        is lifted; (2) a ground-based offensive tank killing system is 
        stationed in Europe; and (3) Operation Iraqi Freedom is 
        mitigated. Additionally, a heavy brigade combat team equipment 
        set should be pre-positioned afloat in the region. These 
        recommendations are in addition to the current DOD plan for a 
        Stryker Brigade in Germany and the 173rd Airborne Brigade in 
        Vicenza, Italy.
  --Further, there should be a commitment to support continuous 
        rotational deployments to Eastern Europe and provide U.S. 
        military-to-military presence in the new NATO countries.
  --The U.S should review its treaty with Iceland, and update it to 
        reflect the post-Cold War security environment.
  --Greater depth is needed in Africa to secure long term United States 
        interests against potential competitors. The Horn of Africa 
        initiative should be replicated in those locations elsewhere on 
        the African Continent that may prove to be of increasing 
        importance to future strategic concerns. To some extent, 
        similar initiatives are needed in Latin America.
Final Remarks
    As a final note, I wish to thank the members of this committee for 
inviting the commission to appear today. It has been my privilege to 
describe the work of the Commission to date, and to express its 
preliminary recommendations.
    Of course, the report has not been finalized, and it is my hope 
that this will be the beginning of a dialogue in this matter so that 
the Commission can strengthen its analysis, conclusions and 
recommendations before submitting its final report on August 15, 2005. 
Please be assured that the Commission and staff are open to the views 
and concerns of Congress. Thank you for giving us this opportunity to 
serve the needs of the Congress and of the Nation, and we will be happy 
to answer any questions that you may have at this time.

    Senator Hutchison. Thank you very much, Mr. Cornella, and 
we will do 5 minute rounds so that everyone will have a chance, 
and then we'll go back through for a second round.

                        TIMING OF IMPLEMENTATION

    Let me start with the slowing of the plan, and that is the 
area that concerns me the most in your recommendations. I 
certainly agree that in a perfect world we would have 
everything right up to the last day overseas for a family, and 
then the first day they arrive everything would be in place, 
but I don't know that that is realistic, nor do I think it is 
necessarily in the best interest of the families or the 
military, and here's why.
    General Schoomacker has made modularity a priority for our 
forces to be trained for the kind of combat that they are 
seeing today, and I just wondered, if you are looking at the 
military capability, did you consider that moving the troops 
home, and having the modular brigades begin to train together 
so that they could go back into Iraq and Afghanistan, what 
impact slowing the process down, as you have suggested, would 
have on that capability?
    Mr. Cornella. Well, I'm going to let some others answer as 
well, but I will start with your question, Senator. I think you 
point out exactly what may be the problem, in the sense that 
for modularity to occur, the timing is sensitive. And as forces 
are moved back from overseas for all of this to take place, it 
is intermeshed and it has to happen, but that is one of our 
concerns, that in order for that to happen on the schedule that 
has been put forth, we are very concerned that that 
infrastructure, as you indicate, will not be in place at those 
receiving locations, and we think that's critical, both in 
regard to the moral obligation to our forces that I indicated, 
and to quality of life for those folks, and for retention. I'm 
going to see if any of the other Commissioners would like to 
respond; I do have a little more to follow up on.
    Senator Hutchison. I'd be happy to hear from anyone else on 
that, but just if you could also direct your attention to the 
capabilities to do that overseas, versus on our own bases.
    Mr. Cornella. I'm not sure I understand your question, 
Senator.
    Senator Hutchison. Well, if they're trying to get these 
brigades trained and ready to go, and they designated the bases 
to do that, we don't have that kind of capacity in Europe and 
Germany right now.
    Mr. Cornella. I would turn to General Taylor.
    General Taylor. Madame Chairman, I appreciate the 
opportunity to respond to that.

                             TROOP MOVEMENT

    I think there may be a little bit of misunderstanding about 
what we have recommended. We're not saying that the forces 
should not come back except in that one case, and we explained 
why we felt that was necessary, or suggested that the 
Department should consider leaving one heavy brigade there, but 
the majority of the forces, large majority of them, we're in 
agreement, they should come back. All we're saying is that, 
don't do it until we have both the quality of life and the 
training capability at our bases here in the United States to 
receive these. The bases here in the United States are fairly 
well occupied right now, and it's going to take some 
infrastructure, in both quality of life resources as well as 
training capability, new ranges--just a piece of desert is not 
necessarily enough to train forces, we've got to build the 
modern digistat ranges, we've got to make sure there's adequate 
infrastructure there to receive them.
    Our forces in Germany are being trained right now, yes, and 
I've served there many years, and yes, there are some 
challenges, but we have been able to train some forces over 
there, our forces have given a good account of themselves in 
Iraq and Afghanistan that have been moved from Europe, but 
again, I emphasize that we're not suggesting that they 
shouldn't come back, we just want to synchronize with the 
preparation of the infrastructure here, at the receiving bases 
here in the United States before we do that. And maybe that's 
going to happen, but based on the information that we were able 
to obtain through the conduct of our assessments, we didn't see 
that the right resources had been allocated, or the right plans 
had been made for that.
    Senator Hutchison. Well, it just seems to me that building 
permanent facilities at a foreign base that you know you're 
closing is certainly not a wise use of funds, and you cannot 
train the number of brigades that we're talking about in 
Germany, which I'm not telling you anything that you don't 
know, it just seems that maybe the focus should be more on 
getting the facilities ready in the bases that are going to 
take them here, and that would certainly be the more permanent 
use of the dollars that are going into this, because if you 
delay too long, you may be really affecting the capabilities to 
transform the military, which certainly, the Department is 
trying to do right now, and I think General Schoomacker's whole 
theory is based on having them here and getting them trained so 
that they can deploy directly from domestic bases.
    General Taylor. Madame Chairman, I think we're saying 
exactly the same thing, it's just a matter of timing, and we 
encourage the Congress to put the right amount of resources 
into it to do it as quickly as we can, and as soon as that's 
done, I think we'd be totally supportive of what you've said.
    Senator Hutchison. Well, the other thing is, pouring money 
into overseas bases that we know we're going to abandon has to 
be looked at very carefully in this big picture, and the longer 
we wait the more things can happen that cause us to lose that 
focus. So, I think we are headed for the same goals, but I do 
think we have a difference in emphasis for what should happen 
when. From my standpoint, I know that others disagree with me, 
so we will certainly want to hear from them as well, and also 
the Department. My time is up, so I'm going to stop and go to 
Senator Feinstein.

                                MOBILITY

    Senator Feinstein. Thanks very much, Madame Chairman. I 
wanted to ask you about your comments on mobility. The reason I 
do this is because virtually wherever I go, and I talk 
particularly to Navy commanders, the question always comes down 
to strategic lift and our inabilities and deficiencies there, 
and you write that adequate strategic sea lift, airlift and 
pre-positioned equipment and stocks do not exist, and that 
current Intra-theater airlift is overstressed. Aside from the 
lift capability, the Commission is also concerned that the air 
and sea ports, inter-nodal connectivities and other mobility-
enabling systems are not adequate to meet potential 
contingencies. Nor is there a budgetary plan to do so. And I've 
had this told to me by CINCs, by others, and I watch the 
budgets and we never seem to come to grips with it.
    Can you add, in any way, to what you've said, anybody who'd 
like to comment?
    Mr. Cornella. General Curtis, would you like to comment?
    General Curtis. Senator Feinstein----
    Senator Feinstein. Don't be shy, say what you think.
    General Curtis. Senator Feinstein, I've watched the airlift 
mobility issues since I was a Captain at headquarters back when 
the C-5 was first introduced. It is always tough to find the 
space within the budget for the adequate procurement of lift, 
and every time we go through the mobility capability study, and 
the associated budget requirements, fitting everything in, our 
unconstrained requirement is difficult, and in my experience, 
there are trade-offs made.
    But clearly, as we become a more CONUS-based force, and we 
re-do the Army, both up armor and more air mobile vehicles, 
like the Stryker, we need to balance those things very 
carefully with lift capability versus our other requirements 
for modernization. And there are no easy answers to that, 
nobody will be satisfied in the end, because there are never 
enough dollars to go around, but everybody within the equation 
that reaches a solution needs to understand that's a very 
critical balance, and I'm sure you do.

                                  COST

    Senator Feinstein. Thank you. Could you expand on your 
comments on funding, that the cost may be understated, and tell 
us a little bit about the independent analysis that was 
conducted for you that put the tab at $20 billion?
    Mr. Cornella. Thank you, I will take that question.
    I left that out of the shortened version of the statement, 
and there's not necessarily a great deal of explanation in the 
other statement we presented to you. There is in our long 
report, quite a bit of information in regard to the cost, but 
that assessment was done by a detailee from the Government 
Accountability Office, and estimated at $20 billion, and I 
think that information was validated on May 10th by a senior 
member of the Department when they said they did agree with our 
figures, but we had cast a wider net to draw those figures in. 
And so we were looking at areas other than what they were 
stating in the $10 to $20 billion, pardon me, the $9 to $11 
billion. We also did have several--two to be exact--members of 
the Department say that the cost could be closer to $25 
billion, so we feel the $20 billion number is defensible.

                            STRYKER BRIGADE

    Senator Feinstein. I understand your European concern, that 
replacing our heavy forces with a Stryker Brigade before we've 
developed the organic tank killing weapon system necessary. 
What kind of response has there been to that recommendation so 
far?
    Mr. Cornella. Response from the Department?
    Senator Feinstein. Right.
    Mr. Cornella. Well, we've not discussed that specific 
recommendation at length with the Department, we have had 
conversations in our travels with Commanders that made that 
suggestion to us, that they thought that that was a good idea 
that that take place, and General Taylor, do you have anything 
you want to add?
    General Taylor. There is an initiative on the part of the 
Army to have an offensive tank killing capability with the 
Stryker variant, but so far it has not come to fruition, and so 
our basic premise is that we definitely need to have an 
offensive ground tank killing capability there as well as the 
other issues that we mentioned, and we're not saying that that 
Brigade should necessarily stay there forever, but until the 
criteria that we mentioned are realized.
    Senator Feinstein. In terms of deployment of bases, and 
transitioning the military, what lessons do you think were 
learned in Iraq and Afghanistan?
    General Taylor. I would first state an opinion, primarily 
about Iraq that, while initially we felt that we could do this 
with much lighter forces, we're finding out more and more that 
heavy forces, even in a city environment is very necessary. I 
know of some people who fight in that area very well, and some 
of them are parts of my family, and they would clearly rather 
fight out of a tank as even an up-armored Humvee, and I think 
the reports coming back from some of the recent efforts in Iraq 
have been, and Baghdad, have shown that there is a place for 
heavy force, although the Stryker variant up in Mosul has been 
very valuable as well. So, I think we're still learning, I 
think the decision on all of this is still out, but we haven't 
lost the need for some of our heavy forces.
    Senator Feinstein. Thank you, my time is up, Madame 
Chairman.
    Senator Hutchison. Senator Allard.

                            OVERSEAS SAVINGS

    Senator Allard. Thank you, Madame Chairman.
    I noticed in your summary here that you hadn't talked in 
detail as did Senator Feinstein, as to some of the costs. I 
wonder if you could give us just some bottom line figures, if 
possible, has the Department of Defense conducted an estimate 
as to how much money would be saved by reducing their basing 
overseas?
    Mr. Cornella. I'm not sure if we were provided with that 
number. Now it's logical to assume that if bases are reduced 
overseas, there will be some savings, and they may be 
significant. At the same time, those facilities may have to be 
replicated within the United States; and also, I'm not sure 
that those figures that are being put forth include any 
mobility that might be required in order to surge out of the 
continental United States. And I can't address that--those will 
be good questions for the Department in the next panel.
    Senator Allard. Did you try and conduct any kind of 
estimate?
    Mr. Cornella. I would have to ask staff about that; we will 
provide you with that information.
    Senator Allard. Okay. Is it correct to say that you do not 
recommend the Department of Defense go back and do its re-
basing strategy?
    Mr. Cornella. I think that I would turn to my other 
Commissioners, but I don't think that we mean to indicate that 
they do that.
    General Taylor. Again, Senator, it's a timing issue, and a 
synchronization issue, not the fact that they shouldn't do it. 
Unfortunately, it's not 100 percent clear, at least up to the 
point when we completed most of our reports, exactly what the 
timing was, that was still a developing process. Remember, this 
was prior to the release of the BRAC report, so exactly where 
they were going, or that the Department was recommending they 
were going was not available to us at that time. Now, some of 
that at least portions of that information is available to us, 
and that will help as we complete our report and look at where 
they might be going here in the United States.

                        FORWARD OPERATING SITES

    Senator Allard. It seems to me like in one of the hearings 
on the Armed Services Committee, they talked about forward 
basing, maybe in the Balkan states where we don't have now, 
that you would end up basically with an air field with 
utilities, and if you put in temporary tents, they would be 
basically two by fours in tent structure, and then when your 
mission was done, you would move out, does that seem like a 
reasonable approach to you?
    General Taylor. You're talking about both the security 
locations and the forward operating sites? Yes, and our only 
question about those is whether or not we have consummated the 
agreements with the host countries that we should have in place 
before we go too much farther, and that's being worked by both 
the Department and others, but the concept is valid and we have 
no problem with that.
    Senator Allard. And do you have any reason to believe that 
those host countries wouldn't cooperate with us? The last time 
I talked to most of them they were thrilled to death to be part 
of NATO, and even be part of the forward deployment effort.
    General Taylor. I would suggest that would be a question to 
ask the next panel. I'm sure they can enlighten you. We did not 
have verifiable information that these agreements have been 
consummated, but I'm sure the next panel can respond to that 
better.

                                  BRAC

    Senator Allard. Okay. To what extent do you believe the 
Department of Defense used its IGPBS to formulate its 
recommendations for base closure and realignment? The Secretary 
of Defense admitted his recommendations for base closures and 
realignments to Congress and BRAC and it was in May, and the 
question is, to what extent do you believe that the Department 
of Defense used the IGPBS to formulate its recommendations for 
base closure and realignments, did you look at that?
    Mr. Cornella. Yes, and I think it had a great deal to do 
with the recommendations to the BRAC Commission. The numbers of 
returning troops from overseas impacted Army bases most 
significantly.
    Senator Allard. And the follow up, then, do you see any 
reason why the BRAC process should not go forward?
    Mr. Cornella. Or as we say in our report, we see no reason 
why that should not go forward. I just would like to add one 
thing to your previous question about the Nations where we 
might have lily pads, or CSLs or whatever you might like to 
call them. We have seen instances most recently, without 
mentioning the names of any countries, one where access to an 
Air Force base was either restricted or denied within the last 
few months. We also have seen instances during the Iraq War 
where certain Nations did not allow access. These are the types 
of things that we're talking about in regard to making sure 
that those agreements are in place before you establish those 
locations in those countries.
    Senator Allard. Thank you, Madame Chairman, I see my time 
has expired.

                                  COST

    Senator Hutchison. Thank you, Senator Landrieu?
    Senator Landrieu. Thank you. Let me just see if I can 
summarize a couple of these questions, because I think the work 
you have done is extremely important, and we appreciate how 
difficult it can be sometimes to really give an independent 
view, and we want to be sure that we have our ears open and are 
willing to hear the independent view, so let me just ask 
again--one of the bottom lines of your report, which is all 
documented here, Mr. Cornella, is that the cost associated with 
moving our troops back could be twice as much as what is 
currently estimated? Is that correct?
    Mr. Cornella. Yes, Senator.

                                 TIMING

    Senator Landrieu. Is it also correct that you are 
suggesting that the time frame that is being adopted as we 
speak is probably too aggressive to accomplish the goal?
    Mr. Cornella. Well, I think again, it's a timing issue. If 
all of this could be timed properly, and we had, maybe, an 
infinite pot of money, there probably would not be a problem, 
but there are a lot of things that are taking place, and I 
cited many of those in my opening statement.
    Senator Landrieu. But in your estimation of the summary of 
your report, there is a time frame that has been proposed, and 
you reviewed it and in your professional judgment, you all are 
saying that it is unlikely that the time frame can be met?
    Mr. Cornella. We have addressed it, we have talked to 
commanders in the field, and we feel it's probably ambitious.
    Senator Landrieu. Would it be fair to say, then, that you 
have some serious concerns about meeting that time frame?
    Mr. Cornella. Well, I think we do in the sense that a lot 
of the moves are already taking place, and have started in 
regard to the Pacific, probably, without mentioning names of 
countries, more than have taken place in Europe, but I would 
agree with your statement, Senator.
    Senator Landrieu. Again, I'm not trying to put words in 
anybody's mouth, I'm just trying to clarify for the record what 
I think. The goal of this hearing is, is to really hear what 
you are saying about your view, and if it is that we've 
underestimated the cost, we need to hear.
    Mr. Cornella. Two thousand eleven sounds like a long way 
off, it's really not that far, and I guess my point was that a 
lot of the moves are already taking place as we rotate forces 
through Iraq and Afghanistan, and I think the plan is to bring 
the forces back from those rotations after they pick up their 
families in Germany and other locations, so the bulk of the 
moves may take place sooner rather than later, they may take 
place sooner, rather than towards the end of that 2011 time 
frame.
    Senator Landrieu. General Curtis, then I think Mr. Martin 
had something to add.
    General Curtis. Yes, Senator, there are three numbers down 
here in the report, and they really measure three different 
things, as our numbers often do in government. And, the $4 
billion is the number specifically tailored to this move within 
the palm through 2011. The $9 to $12 billion, as I understand 
it from the material being given by the DOD is an estimate 
which includes other things of the total cost of this move, and 
some of this money, I'm given to understand, would come out of 
the general O&M accounts within the services, not specifically 
be identified within the POM itself.
    Finally, the $20 billion number is a life cycle number 
beyond the POM, so it isn't directly comparable to either one 
of the two previous numbers. The concerns I have after watching 
the process, how we execute our financial processes is that the 
moves with either be slipped because of an insufficiency of 
funding to do it right, we will move without doing it right, or 
we will take money out of the O&M accounts to pay for the move, 
and not know what we didn't buy, what we gave up in terms of 
readiness or something else by forcing the Services to fund 
parts of the move internally. They're three different numbers 
that all mean the same thing, but they could drive unforeseen 
consequences if we insist on meeting the schedule without fully 
funding it with identifiable funds, and that's one of our big 
concerns.
    Senator Landrieu. Mr. Martin.
    Mr. Martin. Thank you very much, Senator, Madame Chairman. 
In perspective, this is the most sweeping transformation and 
repositioning of U.S. forces since the late 1940's, the Defense 
Reorganization Act of 1947. United States forces, the 
repositioning thereof, it should be positive for our national 
security and our national defense. The Department's plan is a 
good plan, if fully coordinated, synchronized, it can and will 
enhance the Nation's security and defense interests. But it 
should be and must be positive for our service men and women to 
the maximum extent possible. The bottom line of what we said on 
the quality of life is we shouldn't be moving soldiers, 
sailors, airmen and Marines any faster than we can build the 
new housing, the new medical facilities, new schools and 
training facilities as General Taylor pointed out, and 
certainly no faster than we can provide the air lift, sea lift 
and pre-positioned stockage to move them from their United 
States, now CONUS-based homes, to potential points of influence 
and engagement. We have an opportunity right now because of the 
Secretary's vision to do the right thing, we need to do it the 
right way. It is an opportunity, and we believe, a 
responsibility, because if we don't take care of the force we 
have now, we could face a future, and the enemies and threats 
of tomorrow with forces we won't have, and options we don't 
like.
    Senator Landrieu. Thank you.
    Senator Hutchison. Are there any other questions of this 
panel? If not, thank you very much for all of the effort that 
you made. We appreciate it and look forward to looking at it 
further, and now I would like to call the second panel from the 
Department of Defense forward. Thank you very much.
    Mr. Cornella. Thank you, Senator.
                         Department of Defense

STATEMENT OF HONORABLE RYAN HENRY, PRINCIPAL DEPUTY 
            UNDER SECRETARY OF DEFENSE FOR 
            INSTALLATIONS AND ENVIRONMENT
ACCOMPANIED BY:
        PHILLIP GRONE, DEPUTY UNDER SECRETARY OF DEFENSE FOR 
            INSTALLATION AND ENVIRONMENT
        ROSE LIKINS, ACTING ASSISTANT SECRETARY OF STATE, BUREAU OF 
            POLITICAL-MILITARY AFFAIRS
    Senator Hutchison. The next panel is Mr. Phillip Grone, 
Deputy Under Secretary of Defense for Installations and 
Environment, the Honorable Ryan Henry, Principal Deputy Under 
Secretary of Defense for Policy, and Ambassador Rose Likins, 
Acting Assistant Secretary of State, in the Bureau of Political 
and Military Affairs.

                        STATEMENT OF RYAN HENRY

    Mr. Henry. Thank you, Madame Chairman, Senator Feinstein, 
members of the subcommittee, thank you for the opportunity for 
appearing before you today, along with the Overseas Basing 
Commission and Chairman Cornella. Joining me today as you 
mentioned are Acting Assistant Secretary of State, Rose Likins, 
and Deputy Under Secretary, Phil Grone. And I want to say I 
appreciate the insightfulness of your opening remarks today. I 
would like now, if I may, to submit my full statement for the 
record, and make just a few brief remarks at this time.

                  GLOBAL DEFENSE STRATEGY AND PROCESS

    Madame Chairman, the Administration's plan to strengthen 
America's Global Defense Posture will result in the most 
profound re-ordering of military forces overseas since the end 
of World War II. The September 11 attacks clarified our 
understanding of the key security issues that we will face 
during the beginning of the 21st century. Simultaneously, we 
realize that much of our in-place force posture still reflected 
a Cold War structure. We had forward garrison forces configured 
to fight near and where they were based. Unlike the past 
century, today we no longer can predict where, when, or in what 
manner our forces may be called on to fight, therefore our 
forces need to be able to rapidly project power into theatres 
far from where they may be based. Through our Global Defense 
Posture Realignment, we have aimed to strengthen our ability, 
fulfill our international commitments to ensure that our future 
alliances are capable, affordable, sustainable and relevant.
    Then to focus on capabilities, and not just numbers. The 
Defense Department conducted our Global Defense Posture Review 
thoroughly and deliberately. We've collaborated with our inter-
agency partners through broad and sustained deliberations. 
We've also consulted extensively with our allies and our 
partners to incorporate their views. The Department of Defense 
and the Department of State have held joint consultations with 
relevant international partners, in over 20 foreign capitals, 
beginning in December 2003, and continuing on a sustained basis 
since then. We also have communicated with Congress, and 
personal and Committee staff members throughout the review. 
We've provided a detailed report to Congress in September of 
2004, followed by the submission of detailed overseas master 
plans from each of the regional Combatant Commanders in 
February 2005. And over 40 times the Secretary of Defense, the 
Combatant Commanders, the members of the Joint Staff, and the 
Office of the Secretary of Defense have traveled here to 
Capitol Hill to consult with Congressional Committees and 
Members.
    Finally, as mentioned by Chairman Cornella, we have worked 
closely with the Overseas Basing Commission in its efforts to 
provide Congress with an assessment of a global presence, 
basing and infrastructure needs.

                         A COMPLEX UNDERTAKING

    Madame Chairman, as members of the Overseas Basing 
Commission have expressed, the United States Global Defense 
Posture is incredibly complex. It is a multidimensional field 
involving numerous areas; strategic analysis of geopolitical 
and military factors, facilities and infrastructure analysis, 
diplomatic and legal negotiations and arrangements, acquisition 
policies and transportation issues, operational plans and 
synchronization with the Base Realignment Commission, the QDR, 
the Army Modularity Transformation, the Mobility Capabilities 
Study, and the Navy's Fleet Response Plan. We, in the 
Department, have thousands of people working on this complex 
endeavor, full-time in the military services and the combatant 
command, on the joint staff, in the acquisition community and 
other areas, all overseen by senior military and civilian 
officials and managed by Secretary Rumsfeld.
    Madame Chairman, we stressed in our discussions with the 
Commission that posture is more than just our footprint of 
facilities, it also includes the presence, force management, 
our surge capability and the pre-positioning of stocks among 
these building blocks of global posture. Quality of life 
concerns related to force management merit particular 
attention. Changing the way in which we posture our forces was 
driven in large part by the President and the Secretary's 
desire to relieve stress on our military forces and their 
families by providing more security at home, with fewer 
overseas moves and less disruptions. Specifically, posture 
changes will help reduce double separations, those caused when 
accompanying dependents are separated from both the service 
member and the their loved ones in the United States.
    Additionally, our posture changes are phased over several 
years to help ensure quality of life is sustained. Equally 
important, the plan changes to our posture directly support 
service initiatives aimed at keeping pace with our military 
personnel, such as the Army's Modularity and Unit Location 
concepts, the Navy's Fleet Response concept, and the Air 
Force's ongoing Force Management Improvement.
    Madame Chairman, of particular importance in this complex 
undertaking has been our sustained effort to inject the Global 
Defense Posture into other ongoing defense transformation 
initiatives, specifically, the BRAC and the 2005 QDR. I welcome 
the Commission's statement of support for the U.S. Global 
Defense Posture as important and necessary. The Commission's 
report reflects their earnest effort to assess military 
facilities, and structure of the U.S. overseas facilities. The 
Commission fundamentally agrees with many of the aspects of the 
President's posture plan, and it recognizes the importance of 
changing of posture to meet the 21st century's security 
challenges.
    Madame Chairman, thank you for this opportunity to speak to 
you, and I look forward to answering your questions. And, if we 
may, Ambassador Likins would also like to have an opening 
statement.
    Senator Hutchison. Madame Ambassador.

                  STATEMENT OF AMBASSADOR ROSE LIKINS

    Ambassador Likins. Thank you, Madame Chairman, and Senator 
Feinstein. I appreciate the opportunity to be here and to offer 
a few brief remarks.
    Since late 2003, the Department of State has been working 
closely with the Department of Defense and the National 
Security Council on reviewing and strengthening the U.S. Global 
Defense Posture. The Department has played an active role in 
the shaping and implementation of our future defense posture. 
We have been both participants in the inter-agency process, and 
have been spearheading the diplomatic talks and initiatives 
necessary to obtain the understanding and agreement of our 
friends and allies for this important initiative. The 
Department has and will continue to provide its frank 
assessment of these proposals, and to provide our views as to 
the best way forward. We've had a very good working 
relationship with our DOD colleagues on this issue, conducting 
all consultations together and jointly briefing Congress on 
several occasions.
    While the initial planning for the IGPBS was undertaken by 
the combatant commanders in the individual services, these 
plans were presented to the inter-agency for a full and 
thorough examination before their submission to the President. 
The Department has made its foreign policy views known on many 
occasions and will continue to do so. We firmly believe that we 
are taking the appropriate time to get this right, we continue 
to rigorously review proposals with our DOD colleagues, 
thoroughly examine the many facets of these plans, including 
the necessary legal arrangements, and have conducted numerous 
consultations with friends and allies around the world.
    While consultations in some parts of the world are quite 
advanced, others have not even begun, indicative of the fact 
that we will take whatever time is necessary to ensure that our 
plans are logical, workable, and that our engagement strategy 
makes sense. Consultations are proceeding carefully and 
deliberately to ensure that the arrangements put in place to 
host our forces are enduring and beneficial to a wide range of 
United States interests. Through the consultation process, 
we've received valuable feedback that has enabled us to adjust 
proposals and calibrate our expectations. We have gained 
valuable insights throughout the process, and in many ways, the 
consultation process is one of the many mechanisms for re-
thinking, and adjusting our defense posture plans.
    To use just one example, during the consultation process, 
we learned that the government of Germany was undertaking its 
own base realignment and closure process. This prompted us to 
accelerate the sharing of details with German officials related 
to our proposed posture changes in Germany and to undertake 
some additional coordination on our two initiatives. I want to 
assure you that we will not rush into a location where there 
are not adequate legal protections and guarantees for our 
forces, and for their freedom of action. We believe that proper 
legal arrangements are a fundamental requirement for any 
defense posture changes. The State Department believes these 
negotiations and DOD have substantially been involved in all 
talks. We have dedicated legal experts and a special negotiator 
working to ensure that the best legal arrangements are secure. 
We support the OBS's view that their long-term strategic 
national objectives, beyond simply military objectives, 
somewhat to reassure you that our efforts on this issue are 
focused on results that make sense from both the defense and 
strategic foreign policy perspective. Thank you very much.
    Senator Hutchison. Thank you, Madame Ambassador. We're 
going to just have about 10 minutes of questions because we 
have two votes called, and I don't want to keep you waiting any 
longer.
    Let me say, first of all, I'm very pleased that both the 
Department of State and the Department of Defense are 
represented on this panel because I wanted to make sure, and I 
think it is very important, that the Department of State is a 
part of this process as we are looking at closing of bases, or 
forward deploying somewhere else, that we have both Defense and 
State involved.
    Mr. Henry, one of the Commission report findings says, ``If 
unforeseen threats arise in either the near term or the mid-
term, we could be caught in mid-stride, unable to meet them.'' 
This is part of the reason they wanted to delay some of these 
moves. My understanding is that the entire reason for 
transforming our posture is because we're not currently 
positioned to meet unforeseen threats, and we need to have the 
capability to meet them as soon as possible. I would just like 
to ask your comments on that part of the report, and if you 
think speeding up the process will cause transformation to 
occur better, or slowing it down would.
    Mr. Henry. Yes, Madame Chairman, I would agree with your 
statement, and as I mentioned in my opening statement, 
uncertainty is part of the strategic landscape which we have in 
a post-9/11 world. We no longer have the comfort or the 
certainty that we had during the Cold War when we had a single 
enemy and we could predict where we would probably have to meet 
him. In a world we live in today, we might need to use our 
forces through large expanses of the Earth's globe, therefore, 
in the places we have our forces, we have to be able to move 
them quickly to where they might be needed to be employed. 
That's a fundamental feature of the transformation, and our 
capability to meet it. We just can't predict how we will have 
to fight with our forces, where or when.
    As far as your question regarding transformation, this is a 
part of an integrated approach to transformation. The Secretary 
of Defense has published his National Defense Strategy which 
supports National Security Strategy, and from which the Base 
Realignment Commission, the Global Defense Posture, the 
Quadrennial Defense Review, all of the major movements that 
we're making in the Defense Department stem from. This is key 
to transformation, all of these things supported simultaneously 
to move forward in a networked fashion.
    Senator Hutchison. Mr. Henry, in the previous panel there 
was concern raised, and also in the report, about our lift 
capacity. Do you think that we have a better capability for 
lift where we need to go by basing more of our troops in the 
United States, or do you think we have a lift problem that 
requires troops to stay in Germany and Korea?
    Mr. Henry. One of the analyses we did post-the Iraqi major 
combat operations, was to look at the amount of lift that was 
needed to move forces from Europe and around to where they had 
to go, and to try to determine the amount of lift and the speed 
of lift with which to get into the theatre, and if it would 
make a difference coming from Europe or from the continental 
United States, and depending on how we might position ourselves 
as a part of the Base Realignment Commission, in some 
instances, we could actually move quicker from the United 
States. That was one of the considerations that drove the 
Global Defense Posture, as was spoken by the previous panel, 
combatant commanders and operators will never have as much lift 
as they would like to, to feel comfortable, it is a matter of 
adjudicating the risk overall of the contingencies that we 
might have to face. As was mentioned by the panel, we are also 
in the process of a Mobility Capabilities Study, something we 
do approximately every 5 years to look at the total lift 
requirements, and how we're going to meet them. As this has 
been dovetailed into the Base Realignment work that we have 
been doing, they have first done one using the old structure 
and analysis. Now they're looking and finishing up their 
analysis, using as a baseline the Global Defense Posture. As we 
presented the committee in our report back in September of 
2004, and it looks like the impact will not be significant in 
roughly, in the same area that we would have had with the other 
structure. The details are still to be concluded on that, and 
we await the conclusion of the study, which will be integrated 
in the QDR.
    Senator Hutchison. Thank you. Senator Feinstein.
    Senator Feinstein. When troops are moved back to the United 
States, will they be accommodated in permanent or temporary 
facilities.
    Mr. Grone. Depending upon the unit and depending upon the 
location and depending upon the time, there will be a mix of 
permanent or temporary, in the main it will be permanent. The 
discussion about whether or not facilities would be available 
for returning forces is a phased plan over a 4-year period, 5 
years if you count the troops coming back from Korea this 
summer to Fort Carson between fiscal year 2005 and fiscal year 
2009. We are working, particularly with the Army, on 
standardizing our facilities design so that they can be sited 
to any location to use commercial construction standards, all 
of which is designed to make permanent facilities more quickly 
and more readily available to returning forces.
    Senator Feinstein. So, you will not be coming to this 
subcommittee or any other subcommittee to look for additional 
dollars for temporary housing?
    Mr. Grone. There may be occasions where, depending upon the 
unit, there may be some temporary billeting for single enlisted 
personnel that is required, but in the main we are planning to 
move out aggressively to provide permanent facilities as 
quickly as we can.
    Senator Feinstein. If you do that, then what type of 
coordination is being done with local school districts to 
mitigate the impact of thousands of soldiers coming back with 
many children?
    Mr. Grone. Well, we have, the Army in particular, since the 
bulk of the returning forces are Army, are engaged in a series 
of intensive consultations with local school districts and 
State and local government on transportation, schools and other 
issues that might be affected by forces returning from abroad. 
Certainly, with regard to housing, our preference is to rely, 
as is our standard housing policy, on the community first, and 
based on what we know, particularly for the three locations, 
whether we have the bulk of the forces returning from abroad, 
Fort Carson, Fort Riley and Fort Bliss, based on that 5 year 
window between 2005 and 2009 that we have people coming back, 
based on our assessment of the market's ability, the local 
market's ability to adapt based on our existing housing 
privatization efforts at all three of those locations. We 
believe that there is sufficient market availability there to 
accommodate returning forces, and a phase-in for families as we 
have laid it out over the course of that 5 year period, so we 
are intentionally engaged with school systems, and with local 
governments. We'll continue that consultation through the 
summer, so that when we get to the school year, 2006, next 
year, that we will be as integrated as we can be. That is not 
to say there won't be challenges, there will. But we believe 
that we will have a quality of life piece well in hand, and we 
look forward to continuing to consult with the subcommittee as 
we move forward to make sure that you're comfortable with the 
plans as we lay them out.
    Senator Feinstein. I would really appreciate that, because 
I know in California, we have schools that are really 
overcrowded at present, and I think there needs to be some real 
planning done in that regard, but thank you. Let me ask you, 
Mr. Henry, because I'm really concerned with what I see as lift 
deficiencies, and everything I've heard from the field doesn't 
jive with what you say. Would you be willing to share with our 
subcommittee your projected plans for specific lift--in other 
words, how many C-17s, new C-17s, et cetera, that kind of 
thing--because everything I read is that the lift capability of 
our country is severely stressed.
    Mr. Henry. Yes, we would be glad to share that, one thing 
it will be part of the QDR that we'll be reporting to the 
Congress, but we'll be glad to come up here in the interim as 
the data becomes available and then as decisions are made as to 
how we're going to proceed, we'd be glad to share that with the 
committee.
    Senator Feinstein. I would certainly appreciate knowing 
what you're planning is. I mean, in the next 10 years, how many 
C-17s will there be, for example?
    Mr. Henry. Yes, Senator, and as those decisions are still 
awaiting the final report out of the Mobility Capabilities 
Study, as mentioned earlier, and so specific decisions still 
await the final analysis and data.
    Senator Feinstein. Thank you very much, Madame Chairman, I 
think that does it for me. I would just like to conclude by 
saying, I know DOD doesn't like helpful suggestions, or any 
suggestion, but I really think this is a good report, and I 
really ask you to review it with an open mind. I think they've 
raised some very good points, and these are all people who have 
served, who have been there, done that, I think they know what 
they're talking about, period.
    Senator Hutchison. Thank you, I think they acknowledged 
that they will.
    Senator Feinstein. Not quite, but it was a nod, which is 
the best DOD ever does.
    Mr. Henry. Senator, we've read the report with great 
interest and we look forward, hopefully, to being able to 
discuss with the Commission their conclusions prior, and we 
think that we can help them with information and analysis and 
insights that would make the final report even better. Perhaps 
correct inaccuracies and some assumptions that we think that we 
could help them with.
    Senator Hutchison. I would just say that the biggest 
concern I have about the report is the slowing it down. I 
really believe that when you make a decision like this, that in 
order to be the most efficient, to use our taxpayer's dollars 
wisely and to bring people home where they know it's going to 
be permanent, it should be done quickly and not drug out. Now, 
obviously we do want to have the accommodations, we want the 
housing, and I think the public/private partnerships make that 
much more able to be done than if we were just building them 
through MILCON. Certainly coordination with the school 
districts and health care facilities in a community will be 
very important, and I think that is valid, but I would rather 
see us gear up to do it quickly, than to slow down and have 
buildings in Germany and buildings in America that are 
duplicative.
    Mr. Grone. In that regard, Madame Chairman, the most 
important potential impediment we have to implementation is not 
full authorization and appropriation of the budget requests to 
support the round, so if we had the resources available, we 
could certainly accelerate, and we will move out as 
expeditiously as you desire to ensure we have facilities in 
place for our people.

                         CONCLUSION OF HEARINGS

    Senator Hutchison. We'll work with you on that. Thank you 
very much, we're going to go to our vote now. Thank you.
    [Whereupon, at 5:30 p.m., Tuesday, June 28, the hearings 
were concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]

</pre></body></html>
